National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001
                                         November 17, 2008

TO:            Administrator
               Chief Financial Officer

FROM:          Inspector General

SUBJECT:       Audit of the National Aeronautics and Space Administration’s
               Fiscal Year 2008 Financial Statements (Report No. IG-09-006)


Under the Chief Financial Officers Act of 1990, NASA’s financial statements are to be
audited in accordance with generally accepted government auditing standards. The
Office of Inspector General contracted with the independent certified public accounting
firm Ernst & Young LLP (E&Y) to audit NASA’s financial statements in accordance
with the Government Accountability Office (GAO) “Government Auditing Standards”
and Office of Management and Budget’s Bulletin No. 07-04, “Audit Requirements for
Federal Financial Statements,” as amended.

In the “Report of Independent Auditors” (Enclosure 1), E&Y disclaimed an opinion on
NASA’s financial statements for the fiscal years ended September 30, 2008 and 2007.
The disclaimer resulted from continued significant weaknesses in NASA’s financial
management processes and systems, including issues related to internal controls for
property accounting.

The E&Y “Report on Internal Control” (Enclosure 2) includes two significant
deficiencies, which are considered to be material weaknesses. Material weaknesses were
found in NASA’s controls for (1) financial systems, analyses, and oversight used to
prepare the financial statements, and (2) assuring that property, plant, and equipment and
materials are presented fairly in the financial statements. These material weaknesses
have been reported for several years.

The E&Y “Report on Compliance with Laws and Regulations” (Enclosure 3) identifies
certain instances in which NASA’s financial management systems did not substantially
comply with the requirements of the Federal Financial Management Improvement Act of
1996 (FFMIA). For example, the report notes that NASA management continued to
identify certain transactions that are being posted incorrectly due to improper
configuration or design within the Core Financial module.

NASA made progress in improving its internal controls during FY 2008. NASA
developed the Comprehensive Compliance Strategy to help NASA focus on ensuring
compliance with generally accepted accounting principles (GAAP) and other financial
reporting requirements. NASA uses its Continuous Monitoring Program to assess and
evaluate internal controls, compliance with GAAP, and evidence that balances and
activity reported in its financial statements are accurate and complete. However, NASA
                                                                                            2

management and E&Y continued to identify weaknesses in Agency-wide internal
controls that impair NASA’s ability to report accurate financial information on a timely
basis.

To address the property, plant, and equipment (PP&E) material weakness, NASA
implemented new PP&E capitalization policy and procedures, effective October 1, 2007,
to ensure the value of new acquisitions of property will be accurate. NASA also
implemented the Integrated Asset Management (IAM)/PP&E module in May 2008 to
track and value NASA’s capitalized personal property. NASA’s challenge will be to
ensure its processes and controls are operating effectively to accurately record capitalized
property in a timely manner.

NASA should prepare a comprehensive corrective action plan to address the findings
detailed in the enclosed reports and to address material weaknesses identified in the
Administrator’s Statement of Assurance. That plan must be detailed enough to ensure
successful implementation with desired results. In addition, NASA must continue to

   •   ensure that the Office of the Chief Financial Officer is staffed with properly
       trained personnel who can address the Agency’s financial management and
       accountability challenges;

   •   ensure that accounting practices are consistent with applicable standards and are
       consistently applied;

   •   establish internal controls that provide reasonable assurance that the financial
       statements are supported, complete, and accurate; and

   •   implement recommendations made in E&Y’s “Report on Internal Control,” as
       well as those made by our office and the GAO.

In fulfilling our responsibilities under the Chief Financial Officers Act of 1990, we
monitored the progress of the audit, reviewed E&Y’s reports and related documentation,
inquired of its representatives, and ensured that E&Y met contractual requirements. Our
review was not intended to enable us to express, and we do not express, an opinion on
NASA’s financial statements; conclusions about the effectiveness of internal controls
over financial reporting; or compliance with certain laws and regulations, including, but
not limited to, FFMIA.

E&Y is responsible for each of the enclosed reports and the conclusions expressed
therein. Our review disclosed no instances where E&Y did not comply, in all material
respects, with GAO’s “Government Auditing Standards.”


   signed
Robert W. Cobb

3 Enclosures
